                                                 u.s. Department of Justice
                                                  Office of the Inspector General




May 11, 2009

MANAGEMENT ADVISORY MEMORANDUM FOR:

              LAURIE O. ROBINSON
              ACTING ASSISTANT ATTORNEY GENERAL
              OFFICE OF JUSTICE PROGRAMS


FROM:         RAYMONDJ.BEAUDET
              ASSISTANT INSPECTOR GENERAL FOR AUDIT

SUBJECT: 	 Formula Grant Allocations and Awards for the Office of
           Victims of Crime Awards Authorized by the Recoverr Act


       This memorandum is to advise you of work conducted and issues
identified as part of our ongoing audit of the Office of Victims of Crime's (OVC)
management and implementation of funds authorized by the American
Recovery and Reinvestment Act of 2009 (Recovery Act).l Specifically, this
memorandum contains the results of our review of the funding allocations and
awards made under the Victims of Crime Act (VOCA) Compensation "Formula
Grant Program (VOCA Victim Compensation Program) and VOCA Victim
Assistance Formula Grant Program (VOCA Victim Assistance Program) and
identifies several grantees that should be considered for increased monitoring
to ensure that Recovery Act funds are properly expended and the goals of the
Recovery Act are substantially achieved.

Background

      The Recovery Act appropriated $100 million in funding to the OVC. Of
the $100 million, the OVC has designated $5 million to fund the FY 2009
National Field-Generated Training, Technical Assistance, and Demonstration
Projects discretionary grant program and $95 million to fund two formula
grant programs:

       1 The information contained in this memorandum is not intended to be used as the
primary basis for management decisions, but rather identifies risk areas that have the
potential to impact the successful administration and oversight of ove Recovery Act funding.
   •   $47.5 million for the VOCA Victim Compensation Program, and

   •   $47.5 million for the VOCA Victim Assistance Program.

      Each state, the District of Columbia, the Commonwealth of Puerto Rico,
the U.S. Virgin Islands, and any other possession or territory of the United
States that administer VOCA-funded crime victim compensation programs and
VOCA-funded crime victim assistance programs to support the provision of
services to victims of crime is eligible to receive funding. In order to receive
funding, eligible state agencies must meet the eligibility requirements specified
in VOCA of 1984. 2 The Recovery Act - VOCA Victim Compensation Program
and the VOCA Victim Assistance Program are administered by OVC under the
applicable provisions ofVOCA, 42 U.S.C. 10602(a), the Final Program
Guidelines for the VOCA Victim Compensation Program (published in the
Federal Register on May 16, 2001), the VOCA Victim Assistance Program
(published in the Federal Register on April 22, 1997), and the applicable
provisions of the American Recovery and Reinvestment Act of 2009,
H.R. 1., signed by the President on February 17, 2009.

Verification of Formula Allocations

       In support of its Recovery Act efforts, the OVC posted solicitations for
the VOCA Victim Compensation Program and the VOCA Victim Assistance
Program on Grants.gov, the Office of Justice Programs' (OJP) website, and the
OVC's website. Allocations of funds under each grant program were also made
available on the OVC's website. The funding allocations for the VOCA Victim
Compensation Program were developed by OJP's Office of the Chief Financial
Officer (OCFO) and allocated funds to each state or territory based upon the
fiscal year (FY) 2009 VOCA Formula Grant allocations (statutorily mandated to
be 60 percent of a state or territory's prior year certified VOCA payout).3 The
funds appropriated under the Recovery Act were not suffiCient to allocate the
full FY 2009 VOCA Formula Grant funds to each state or territory, therefore,
each state or territory was allocated VOCA Victim Compensation Program
funds based on the percentage of the total FY 2009 VOCA Formula Grant
funds allocated to each state in accordance with the Victims of Crime Act. 4
We verified that the data used for the certified VOCA payouts matched the
amounts reported by the states and concluded that the OCFO's allocation
calculations appear reasonable and accurate and in accordance with the
Victims of Crime Act.

       2   42 U.S.C. § 10602 (b) (2007)
        3 42 U.S.C. § 10602 (al) (2007). During our review, we determined that the FY 2008
certified VOCA payouts were not available at the time the Recovery Act VOCA Victim
Compensation Program allocations were calculated; as a result, the OCFO used FY 2007
payout data to determine the final allocations made under the program.
       4   42 U.S.C. § 10606 (a2) (2007)
                                           -2­
      Likewise, the final allocation for the VOCA Victim Assistance Program
was developed by the OCFO. Under this program, each eligible state received
a base amount of $500,000 and each eligible territory received a base amount
of $200,000. The remaining funds were then allocated to the eligible states
and territories based on population. During our review, we verified the
accuracy of the OCFO's final allocation for the Program by comparing the
OCFO population estimates to estimates obtained from the U.S. Census
Bureau, and found the OCFO's allocation calculations for the VOCA Victim
Assistance Program appear to be reasonable and accurate.

Review of Applications and Awards

      Under both the VOCA Victim Compensation and VOCA Victim
Assistance Programs, the OVC required each state or territory to submit its
application for funding by March 20,2009. As shown in Table 1, the OVC
received 127 applications under the 2 programs and funded 109. Of the 18
denied applications, 7 were duplicate applications and 11 were from
applicants that were not a state or territory's deSignated VOCA administering
agency as required by the solicitations.

TABLE 1. OVC FORMULA GRANT APPLICATIONS AND AWARDS
                                 APPLICATIONS    APPLICATIONS     APPLICATIONS
            PROGRAM                REcEIVED        FuNDED            DENIED
VOCA Victim Compensation
                                      61             53                8
  Pro~ram
VOCA Victim Assistance
                                      66             56                10
  Pro~ram
TOTAL                                127             109               18
Source: OJP's Grant Management System (GMS)

      For each application funded under both the VOCA Victim Compensation
and VOCA Victim Assistance Programs we reviewed application documentation
in OJP's Grant Management System (GMS) to determine if: (1) the application
was complete, (2) the amount funded exceeded the amount allocated as
determined by the OCFO, and (3) any awards were made to high-risk grantees
as determined by both OJP and the OIG.

Application Completeness

       For the 109 applications funded under both the VOCA Victim
Compensation Program and VOCA Victim Assistance Programs, we determined
if the each state or territory submitted all certifications and assurances
required by the solicitation and the Recovery Act. Based on our review, we
verified that each funded application was complete and that each contained:

   • A completed standard form 424;

                                       -3 ­
   • 	 An administrative and training funds usage statement;

   • 	 The state statute covering the victim compensation program;

   • 	 A certification of compliance with "state grantee eligibility requirements"
       statement;

   • 	 A description of the applicant's plan for the collection of the data 

       required for performance measures; 


   • 	 A certification as to the Recovery Act reporting requirements; and

   • 	 A general certification as to the requirements for receipt of funds for
       infrastructure investments.

Review ofAward Amounts

       We compared the final funding allocations to award documentation for
both the VOCA Victim Compensation and VOCA Victim Assistance Programs
to verify that the amount awarded did not exceed the amount that the OCFO
allocated to each state or territory. Based on our review, we verified that the
awards made under both the VOCA Victim Compensation and VOCA Victim
Assistance Programs did not exceed the allocations calculated by the OCFO
and that all of the funds allocated to individual states or territories had been
awarded.

Awards made to High-Risk Entities

      OJP currently has a process in place to deSignate certain entities as
high-risk. The criteria used to deSignate an entity as high-risk are broadly
defined in 28 C.F.R. § 66.12. At present, such criteria include the following:

   • 	 A history of unsatisfactory performance;

   • 	 Not finanCially stable;

   • 	 A management system that does not meet the management standards
       set forth in 28 C.F.R. § 66.20 (standards for finanCial management
       systems);

   • 	 Non-conformity to terms and conditions of previous awards; or

   • 	 Otherwise not responsible.



                                       - 4­
       According to OJP officials, each entity on the high-risk list is reviewed to
detennine the nature of the reasons for the high-risk designation. If that
reason is detennined to be an issue that is considered cross-cutting (affecting
all sub-agency operations within the entity), then the entire entity and all its
sub-agenCies would be considered high-risk. OJP develops a variety of
corrective action efforts, special conditions, and monitoring activities specific
to each high-risk entity.5

    . We obtained OJP's list of high-risk entities and compared it to award
documentation for the VOCA Victim Compensation and VOCA Victim
Assistance Programs to detennine if any awards had been made to entities
deSignated as high-risk. Upon review of OJP's list of high-risk entities, we
identified four entities deSignated as high-risk that had been awarded
apprOximately $4.5 million of Recovery Act funding under both formula
programs, as shown in Table 2.

TABLE 2. AWARDS TO mGH-RISK ENTITIES
 GRANTEE                                                                        AWARD AMOUNT
 New Jersey Department of Law and Public Safety                                       $2,484.671
 Commonwealth of Puerto Rico                                                             145.139
 North Carolina Department of Crime Control and Public Safety                         $1.110.000
 Puerto Rico Department of Justice                                                       762.000
 TOTAL                                                                            $   4,501,810
Source: GMS

       Additionally, we identified four entities that had been awarded
apprOximately $3.5 million of Recovery Act funds under both formula
programs that OJP detennined to have cross-cutting issues with high-risk
entities, as shown in Table 3. For example, the District of Columbia was
deSignated as a high-risk entity by OJP because the recommendations related
to OIG Audit Report No. TO-80-08-042 had been open for more than 6
months. OJP attached additional high-risk special conditions to the awards to
these four entities.




         5 The special conditions include such requirements as: (1) ensuring reCipients not
obligate. expend. or draw down funds under the awards until outstanding audit issues have
been satisfactorily addressed; (2) requiring reCipients to agree to promptly provide fmancial or
programmatic documentation related to the awards upon request. including documentation of
expenditures and achievements; (3) requiring recipients to agree that at least one key grantee
official completes an OJP sponsored fmancial grant administration training. which will include
a session on grant fraud prevention and detection within 120 days of the award; and
(4) notifying reCipients that they will be subject to additional on-site financial and
programmatic monitoring.
                                             -5­
TABLE 3. AWARDS TO SUB-AGENCIES OF IUGH-RISK ENTITIES
         DETERMINED TO HAVE CROSS-CUTTING ISSUES
          AWARD REcIPIENT                       HIGH-RISK AGENCY           AWARD AMOUNT
 District of Columbia Superior Court District of Columbia Government           770,857
 Michigan Department of Community State of Michigan (subrecipient ­          1,497,800
    Health                              The Alliance for a Safer Greater
                                        Detroit)
 North Carolina Victim               North Carolina Department of Crime        647,906
    Compensation Commission             Control and Public Safety
 District of Columbia Office of the  District of Columbia Government           539,000
    Deputy Mayor for Public Safety
    and Justice
 TOTAL                                                                      $3.455.563
Source: GMS and OJP

       Finally, as shown in Table 4, we identified five award recipients that
received approximately $4.6 million of Recovery Act funds under both fonnula
grant programs that may also have cross-cutting issues with high-risk
entities. Although, OJP did not designate these award recipients as high-risk,
the high-risk entities have direct oversight of, or some other close association
with the award recipient.

TABLE 4. AWARDS TO SUB-AGENCIES OF IUGH-RISK ENTITIES
          AWARD REcIPIENT                     HIGH-RISK AGENCY             AWARD AMOUNT
 Georgia Criminal Justice            State of Georgia                        $2,156,976
     Coordinatln~ Council
 Massachusetts Department of the     Commonwealth of Massachusetts              271,484
    Attorney General
 Minnesota Department of Public      Minnesota Crime Victims Reparation         369,897
     Safety                            Commission
 Massachusetts Victim Witness        Commonwealth of Massachusetts              930,000
    Assistance Board
 State of Minnesota                  Minnesota Crime Victims Reparation         845,000
                                        Commission
TOTAL                                                                       $4.573.357
Source: GMS

      For example, as shown in Figure 1, OJP designated the Commonwealth
of Massachusetts as a high-risk entity because recommendations related to
OIG Audit Report No. TO-80-08-041 had been open for more than 6 months;
however, grant funds were awarded to the Massachusetts Department of the
Attorney General under the VOCA Victim Compensation Program, a
sub-agency of the Commonwealth of Massachusetts.




                                          -6­
FIGURE 1. PARTIAL MASSACHUSETTS GOVERNMENTAL ORGANIZATION
             CHART
                                                                  Administt-ation
                                                              ~

                                                                   and Finance
                                 ,...--
                                          Governoris
                                            Omce
                                                                    Pu hlic Safety
                                                              -     and Secu rity
  Commonwealth
 of Massachusetts
                                                                     Office of the
                                                          -
                                                                  Attorney General

                                 -        Attorney
                                          General
                                                                    V icti m an d
                                                          ~
                                                                      Witness
                                                                  Assistance B oard
Source: Commonwealth of Massachusetts Website. Mass.gov

       Although we acknowledge that the Massachusetts Department of the
Attorney General and the other sub-agencies of the high-risk entities listed in
Table 4 may not have issues that would specifically designate them as high
risk, in our judgment since deficiencies have occurred in other sub-agencies
diiectly overseen by high-risk entities, these deficiencies are more likely to
occur within -the sub-agencies receiving Recovety Act funds and warrants
increased monitoring. In order to mitigate the increased risk of
non-compliance with Recovety Act requirements, fraud, waste, or abuse of
Recovety Act funds, the ove should consider applying additional monitoring
measures to the award recipients listed in Table 4, such as additional site
visits, additional desk reviews, or increased communication with award
recipients during the award period.

      Please advise us of the actions you intend to take regarding the issues
discussed in this memorandum within 30 days. If you would like to discuss
the information in this memorandum, you may contact me on (202) 616-4633
or David M. Sheeren, Regional Audit Manager, Denver Regional Audit Office,
on (303) 335-4001.




                                           -7­
cc: LeToya A. Johnson
    Deputy Director
    Audit and Review Division
    Office of Audit, Assessment and Management
    Office of Justice Programs




                                  -8­
                     (	                               u.s. Department of Justice     (

                                                      Office of Justice Programs

                                                      Office of the Assistant Attorney General


                                                       Washington, D.C. 20531

 ~JUL 0 2 2009


MEMORANDUM TO: 	                      Glenn A. Fine
                                      Inspector General

THROUGH: 	                            Raymond J. Beaudet
                                      Assistant Inspector General for Audit

FROM: 	                               Laurie O. Robinson \...()~ ~ '-"­
                                      Acting Assistant Attorney General

SUBJECT: 	                            Office of Justice Programs' Response to Management
                                      Advisory Memorandum, "Formula Grant Allocations and
                                      Awards/or the Office o/Victims o/Crime Awards
                                      Authorized by the Recovery Ad'

        This memorandum provides the Office of Justice Programs' (OJP's) response to
correspondence from the Office of the Inspector General (OIG) dated May 11,2009, regarding
the results of your office's review of the funding allocations and awards made under the Victims
of Crime Act (VOCA) Compensation Formula and Victim Assistance formula grant programs.
As noted in your office's correspondence, the OIG found that the allocation calculations for both
formula grant programs appear reasonable and accurate.

        With respect to the OIG's review of the grant applications and awards, the
correspondence notes that the OIG identified entities that were not designated as high risk, but
were a component of a State agency that had oversight responsibility for another agency
component that was designated as high-risk. To address this issue, your office recommended
that OJP should consider applying additional monitoring measures to all components of a State,
if any component of that State is designated as high risk. For example, utilizing the
organizational structure included in your correspondence (depicted on page 2 of this
correspondence), if the Massachusetts Office of Public Safety and Security, a sub-agency of the
Governor's Office, is designated as high risk, then all sub-agencies within the Commonwealth of
Massachusetts should be subject to additional monitoring measures.

        During Fiscal Year 2009, OJP's Office of Audit, Assessment, and Management
operationalized the high risk process after careful consideration of the risks associated with high
risk grantees. For your information, attached are copies of the policies and procedures that guide
the processes currently in place. As you will note within the attached high risk procedures, when
a component of a State is designated as high risk, OJP determines whether the issue leading to
                      (                                                                      (

the high risk designation is an isolated issue that affects only that component, or whether the
issue is cross-cutting and impacts all Department of Justice awards to that State. Again, for
example, utilizing the organizational structure included in your correspondence (depicted below),
if the Massachusetts Office of Public Safety and Security has an open recommendation related to
unsupported costs on a grant awarded to that office, OIP would deem only that sub-agency as
high risk and only that sub-agency would be subject to additional monitoring or other appropriate
sanctions. Conversely, if the open recommendation relates to untimely submission of a
statewide Single Audit Report, OIP would deem such an issue as cross-cutting. As such, any
sub-agency (Administration and Finance, Public Safety and Security, Office of the Attorney
General, and Victim and Witness Assistance) of the Commonwealth of Massachusetts that
receives an OJP grant would be considered as high-risk and subject to additional monitoring or
other appropriate sanctions until the cross-cutting issue is satisfactorily resolved.

                                                                          Administration
                                                                   -       and Finance
                                             Governor's
                                      -                    t-­
                                               Office
                                                                           Public Safety
                                                                   -       and Security
           Commonwealth
                                t-­
                of
           Massachusetts                                           r-­
                                                                             Office of the
                                                                          Attorney General

                                      '--­
                                              Attorney     f---­
                                              General                       Victim and
                                                                   '--­      Witness
                                                                            Assistance
                                                                              Board


        We have considered your recommendation. However, we believe the high risk process
OIP currently has in place provides an appropriate level of oversight with respect to components
of States that have been designated as high risk.

         We appreciate your feedback. If you have any questions regarding this response, please
feel free to contact me on 202-307-5933, or Maureen Henneberg, Director, Office of Audit,
Assessment, and Management, on 202-616-3282.

cc:    Mary Lou Leary
       Deputy Assistant Attorney General 

         for Policy 


       Beth McGarry 

       Deputy Assistant Attorney General 

        for Operations and Management 





                                                2

             (                                (


Joye Frost
Acting Director
Office for Victims of Crime

Marcia K. Paull
Chief Financial Officer
Office of Justice Programs

Maureen Henneberg
Director
Office of Audit, Assessment, and Management

LeToya A. Johnson
Deputy Director, Audit and Review Division
Office of Audit, Assessment, and Management




                                     3

                                 (
                               Attachment




OJP's High-Risk Grantee Procedures 

                                                                                          (


UNITED STATES
DEPARTMENT OF JUSTICE
                                                                                     OJP02900.2
OFFICE OF JUSTICE PROGRAMS
                                                                                       9/27/2007

Order
Subject: HIGH-RISK GRANTEE DESIGNATIONS

1. 	     PURPOSE. This Order establishes the policies and procedures to be followed by Office of
         Justice Programs ("OJP") personnel in connection with making high-risk grantee
         designations.

2. 	     SCOPE. This Order applies to all OJP programmatic and support bureaus and offices
         ("Components").

3. 	     EFFECTIVE DATE. This Order is effective upon the issuance date.

4. 	     AUTHORITIES.

         a. 	   42 U.S.C. § 3782 (OJP administrative authority)

         b. 	   28 C.F.R. § 66.12 (Special grant or subgrant conditions for "high-risk" grantees)

         c. 	   28 C.F.R. pt. 67 (Government-wide Debarment and Suspension (Nonprocurement»

5. 	     POLICY. It is the policy of OJP that the Deputy Director for Audit and Review, within
         the Office of Audit, Assessment, and Management ("'OAAM"), be designated as the High­
         Risk Designation Coordinator for OJP, to have such responsibilities as may be described
         herein.

6. 	     RESPONSIBILITIES. In order to implement this Order, the following responsibilities
         are assigned:

         a. 	   High-Risk Designation Coordinator. The High-Risk Designation Coordinator shall,
                as necessary and appropriate-




       Distribution: All OJP Employees               Initiated by: Office of Audit, Assessment and
                                                                   Management, Audit and Review
                                                                   Division
                                                   -1­
                     (                                                                  (
                                            OJP 0 2900.2
                                              9/27/2007

           (1) 	 Coordinate within OJP­

                 (a) 	 a streamlined process for taking appropriate action when OJP detennines
                       that a grantee meets one or more of the high-risk criteria specified in
                       28 C.F.R.§ 66.12. At present, such criteria include the following:

                         (i) 	 Has a history of unsatisfactory performance;
                         (ii) 	 Is not financially stable;
                         (iii) 	 Has a management system that does not meet the management
                                 standards set forth in 28 C.F.R. § 66.20 (standards for financial
                                 management systems);
                         (iv) 	 Has not conformed to tenns and conditions ofprevious awards; or
                         (v) 	 Is otherwise not responsible.

           (2) 	 Work with OJP components to interpret the high-risk criteria identified in
                 28 C.F.R.§ 66.12 and identify potential conditions that may lead to an OJP
                 grantee being designated as high-risk.

           (3) 	 Establish follow-up and resolution processes, in order to ensure that timely
                 corrective actions are taken to assist the grantees in addressing all ofthe issues
                 that led to the original high-risk designation.

           (4) 	 Keep OJP personnel informed of grantees that have been designated as high­
                 risk.

           (5) 	 Coordinate referrals, if necessary, to the Department of Justice suspending or
                 debarring official with necessary documentation to support the reason(s) the
                 organization should be considered for inclusion into the General Services
                 Administration's Excluded Parties List System (http://epls.amet.govl.

    b. 	   OJP Components. The Head of each OJP Component shall serve as the High-Risk
           Designation Approving Official within the same, to review and approve referrals for
           high-risk designation on behalf thereof. This authority may be redelegated to a
           subordinate.

7. . 	HIGH-RISK REFERRAL PROCESS.

    OJP personnel may become aware of serious programmatic or financial noncompliance
    issues regarding OJP grantees and applicants through a variety ofsources. These sources
    include, but are not limited to, OJP fiscal integrity reviews; OJP programmatic monitoring;
    OJP financial monitoring; Office of the Inspector General (OIG) audit resolution activity;
    Single Audit resolution activity; OIG investigations; referrals from other Department of
    Justice grant-making components; referrals from other Federal grant-making organizations;
    and the media.
                                                -2­
                                      OJP 02900.2
                                        9/2712007·



a. 	   Making High-Risk Designation Referrals: Any Component personnel may
       recommend a grantee for inclusion on the High-Risk Designation List. Any such
       recommendation must receive the approval of the component's designated High-Risk
       Designation Approving Official before being sent to the High-Risk Designation
       Coordinator.

b. 	   Cross-cutting High-Risk Referrals: The High-Risk Designation Coordinator shall
       review the referral and determine if the issues identified may affect or involve other
       current OJP grants with the same recipient; if so, the High-Risk Designation
       Coordinator shall­

       (1) 	 Notify the High-Risk Designation Approving Official for each affected or
             involved components of the referral (including providing a list of all active
             grants and pending applications); and

       (2) 	 Facilitate a meeting of the grant managers for the.active grants and pending
             applications, as well as the High-Risk Designation Coordinator and
             representatives ofthe Office of the ChiefFinancial Officer and the Office of
             the General Counsel, to develop a technical assistance plan; develop a
             corrective action plan; identify immediate actions that may be required of OlP
             personnel; identify immediate restrictions or actions necessary on current
             awards as a result of the high-risk designation; and lor identify possible
             penalties for continued non-compliance. The High-Risk Designation
             Approving Officials for any affected component may also elect to participate in
             meeting. (See also (3), below.)

             Immediate action required of OJP personnel may include withholding funds on
             current awards. If such action should be required, the same shall be
             coordinated with the Office of Chief Financial Officer in accordance with
             OJP I 4501.1A (Temporarily Freezing Payments and Suspension or
             Termination ofGrant or Cooperative Agreement Awards). In addition,
             immediate action may include conducting a financial and/or programmatic
             monitoring visit or referring the grantee to the OIG for audit or investigation.
             Penalties may include imposition of special conditions on pending awards;
             additional or more detailed financial reporting requirements; additional
             financial or programmatic monitoring; or imposition of prior approval
             requirements.

       (3) 	 The decisions of the high-risk discussion group shall be summarized and sent
             to the affected component High-Risk Designation Approving Officials, the
             Office of the Chief Financial Officer, and the Office of the General Counsel,
             for the concurrence of each.       .

                                           -3­
                                                                                           (

                                              OJP 0 2900.2
                                               9/27/2007

              (4) 	 In the event that the unanimous concurrence described in (3), above, be ~ot
                    obtained, the matter will be referred to the Assistant Attorney General for final
                    detennination.                                                     .

       c. 	   Notice of High-Risk Designation: Once unanimous concurrence (or determination)
              is obtained under b., above, the High-Risk Designation Coordinator shall, in writing,
              notify the grantee ofthe high-risk designation, including­

              (1) 	 The reason for the high-risk designation;

              (2) 	 The nature of any current restrictions as a result of the high-risk designation;

              (3) 	 The corrective actions that must be taken;

              (4) 	 The length of time the restrictions and high-risk designation will be imposed;

              (5) 	 Future penalties and restrictions that may be imposed if timely corrective
                    action is not taken; and

              (6) 	 The process for requesting reconsideration of the conditions/restrictions and
                    the high-risk designation.

              A copy of the notification shall be filed in Official Grant File (maintained by the
              Office of the Chief.Financial Officer and/or within the Grants Management System).

       d. 	   Grant-Specific High-Risk Referrals: Components are encouraged to refer grantees,
              as appropriate, to the High-Risk Designation List even if the issues identified appear
              to be grant-specific. Even where coordination with other OJP components may not
              be required hereunder, including the grantee on the list may afford a useful
              opportunity for OJP components to share their experiences so that appropriate
              precautions may be taken for future OJP awards.

8. 	   FOLLOW-UP AND DESIGNATION REMOVAL PROCESS.

       a. 	   Tracking Corrective Action Efforts: The High-Risk Designation Coordinator shall
              take the lead in tracking implementation of the milestones relative to the corrective
              actions that must be taken to have a high-risk designation removed. Follow-up on
              grant-specific programmatic corrective actions that may be required shall be
              coordinated through the appropriate grant manager. In accordance with normal grant
              management duties, the appropriate grant manager shall continue to work with the
              grantee regarding such issues until each has been appropriately resolved. In these
              cases, the High-Risk Designation Coordinator's responsibility shall be limited to
              following up with the appropriate grant manager to detennine if the corrective action
              has been implemented.
                                                  -4­
                     c. 	                                                             (

                                            OJP01900.&
                                             VJ2!2007


      b. 	   Delinquent Corrective Action Implementation: In the event that a grantee should not
             make sufficient progress in addressing the required corrective actions within the
             timeframes specified, the High-Risk Designation Coordinator shall coordinate efforts
             with the appropriate OJP components to detennine whether more severe penalties,
             such as the following, may warranted:

             (1) 	 Tenninating the award;

             (2) 	 Freezing grant funds on current OIP grant awards;

             (3) 	 Barring the grantee from receiving future OJP grarit awards; and/or

             (4) 	 Recommending the grantee for debarment and suspension pursuant to
                   28 C.F.R. pt. 67 (Government-wide Debarment and Suspensi~n
                   (Nonprocurement»;

     c. 	    Removal of High-Risk Designation: When all corrective actions have been
             implemented and/or other conditions have been met (i.e., expiration of fixed period
             during which a grantee is barred from receiving OJP awards), the High-Risk
             Designation Coordinator shall notify the appropriate OIP components and the
             grantee, in writing, that the restrictions imposed have been lifted and the high-risk
             designation has been removed.



flti:r:s. t; .5rf¥1­
R"iiSchoficld                                           Date
Assistant Attorney General




                                                 -5­
